                                     SOCIAL SECURITY
MEMORANDUM
Date:   April 18, 2008                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance   Indicator Audit: Hearings and Appeals (A-15-07-17132)


        OBJECTIVE
        We contracted with PricewaterhouseCoopers, LLP, (PwC) to evaluate 13 of the Social
        Security Administration’s (SSA) performance indicators established to comply with the
        Government Performance and Results Act. Attached is the final report presenting the
        results of one of the performance indicators PwC reviewed. For the performance
        indicator included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer-processed
               data. Data are reliable when they are complete, accurate, consistent and not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in SSA’s Fiscal Year 2007
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicator:

           •   SSA hearings case production per workyear (PPWY).
Page 2 – The Commissioner

Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE INDICATOR AUDIT:
      HEARINGS AND APPEALS

     April 2008   A-15-07-17132



AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      April 1, 2008

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)

OBJECTIVE
The Government Performance and Results Act of 1993 (GPRA)1 requires that the
Social Security Administration (SSA) develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicator included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer-
              processed data. Data are reliable when they are complete, accurate,
              consistent and not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in SSA’s Fiscal Year
              (FY) 2007 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                    1
BACKGROUND
We audited the following performance indicator as stated in the SSA FY 2007 PAR.

    Performance Indicator                        Goal                   Reported Results

    SSA hearings case production per
    workyear (PPWY) 5                            106                    101

The strategic objective to which this indicator is linked is "Manage Agency finances and
assets to link resources effectively to performance outcomes." This indicator allows
SSA and the public to directly relate the performance outcome of hearings processed to
employee work-years.

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI)
and Supplemental Security Income (SSI) programs. The OASI program, authorized by
Title II of the Social Security Act (Act), provides benefits for eligible workers and eligible
members of their families and survivors. 6 The DI program, also authorized by Title II of
the Act, provides income for eligible workers who have qualifying disabilities and eligible
members of their families before those workers reach retirement age. 7 The SSI
program, authorized by Title XVI of the Act, was designed as a needs-based program to
provide or supplement the income of aged, blind, and/or disabled individuals with limited
income and resources. 8

To determine eligibility for both Title II and XVI programs, applicants must first file a
claim with SSA. This is typically accomplished through an appointment or walk-in visit
to 1 of SSA’s approximately 1,300 field offices, through the SSA telephone network, or
online via the Internet Social Security Benefit Application. Interviews with the applicants
are conducted by field office personnel via the telephone or in person to determine the
applicant’s non-medical eligibility. If an applicant is filing for benefits based on disability,
basic medical information concerning the disability, medical treatments, and
identification of treating sources is obtained.

After an applicant submits a claim, it will receive an initial determination of benefits. If a
claimant disagrees with the initial determination, he/she can appeal within 60 days (plus
5 days for mailing purposes). The SSA appeals program provides four levels of appeal
for a claimant: 9

5
    SSA FY 2007 PAR, p. 81.
6
    The Act, §§ 201-234, 42 U.S.C. §§ 401-434.
7
    Id.
8
    The Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
9
    The Act, §§ 205 and 1631, 42 U.S.C. §§ 405 and 1383.


Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                              2
      •   Reconsideration;
      •   Hearing;
      •   Appeals Council (AC) Review; and
      •   Lawsuit in Federal District Court.

Reconsideration

A complete review of the claim is performed by someone who was not part of the initial
decision process. All of the evidence initially submitted by the claimant, and any new
evidence, is reevaluated during the reconsideration process. Upon receiving the
reconsideration decision, the claimant may request a hearing if he/she disagrees with
the decision.

Hearing

A hearing is conducted by an administrative law judge (ALJ) who is independent of both
the initial determination and the reconsideration decision. The ALJ reviews all
information related to the claim and makes the hearing decision. If the claimant
disagrees with an ALJ’s hearing decision, the claimant may request an AC review. 10

AC Review

The AC evaluates all requests for review but can deny a request if it believes the
hearing decision was correct. If the AC grants the request for review, it will either
complete the review or return it to an ALJ for further review. If the claimant disagrees
with the review decision or if the AC decides not to review the case, the claimant may
file a lawsuit in a Federal District Court.

Lawsuit in Federal District Court

The Federal District Court may remand the court case to SSA’s Commissioner for
further consideration or dismissal. If remanded to the Commissioner, the AC, acting on
the Commissioner’s behalf, can make a decision or remand the case to an ALJ to make
a decision.

SSA strategically measures the amount of cases and appeals processed to deliver high
quality, citizen-oriented services. Their objective is to make correct decisions in the
disability process as early as possible. 11 A key measurement is the determination of the
number of SSA hearing cases processed.


10
  The performance indicator described in this report only focuses on the Hearing stage of the appeals
process. The AC review and Lawsuit in Federal District Court are not measured by the indicator.
11
     SSA FY 2007 PAR, p. 49.


Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                       3
Employees in the Division of Cost Analysis (DCA) under the Deputy Commissioner for
Budget, Finance and Management and the Office of Disability Adjudication and Review
(ODAR) produce the reports used to calculate the number of SSA hearings cases
PPWY. ODAR’s Monthly Activity Report, Case Processing Management System
(CPMS), Payroll Analysis Recap Report (PARR), Time and Attendance Management
Information System (TAMIS), ODAR Bi-weekly Staffing report, and the Consolidated
Caseload Analysis Report are created by ODAR. The Training Report and Control
Workyears are from DCA. As of FY 2005, the PARR was used instead of the Time and
Attendance Report. The indicator is calculated by dividing the number of cases
processed 12 by direct workyears.

The number of cases processed is reported on the Monthly Activity Report, which is
generated by CPMS. This number is the sum of all hearings cases with a disposition
date recorded in CPMS and is entered into the Electronic Cost Analysis System (CAS)
spreadsheet for calculation.

The number of direct workyears expended by ODAR employees is calculated by
dividing the number of actual work hours worked by the work hours in a year. Refer to
the following formula.

Direct                        (Regular + Overtime) – (Leave + Holidays + Training + Travel)
                        =
Workyears                     Work Hours in a Year

The following inputs are entered into the PPWY Calculation spreadsheet to determine
the amount of actual work hours.

 •   Regular and Overtime: Time worked by ODAR employees is recorded in the
     Mainframe Time and Attendance System (MTAS) and automatically transferred to
     TAMIS at the end of each pay period. Regular and overtime hours are reported on
     the Time and Attendance Report generated by TAMIS.
 •   Leave: Leave hours taken by ODAR employees are recorded in MTAS and
     automatically transferred to the Payroll Operational DataStore. Leave hours used
     in the calculation are reported on the PARR.
 •   Holidays: The number of official SSA paid holidays is used for this input.
 •   Training: Time spent in training is tracked at the Hearings Office and Regional
     Office levels, by training forms, sign-in sheets and employee reporting. The
     Hearings Office sends the training information to the Regional Office, who then
     sends this information to ODAR.




12
  Cases processed in the context of this report refers only to hearings cases. It does not include cases in
the other levels of appeal (reconsideration, AC review, or lawsuits).


Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                        4
 •     Travel: 13 The amount of time spent traveling by ALJs is estimated using the
       following formula.


                             =    1.1 * Total working days in Month * (Total ALJs - Chief
       Travel Time
                                      Judges)


The number of work hours in a year is defined by SSA as 2,080 hours (40 hours in a
week x 52 weeks in a year). However, for the overtime figure used in the denominator
calculation, work hours in a year was calculated using data from the Payroll Analysis
and Recap Report (PARR) generated from the Payroll Operational Datastore. SSA
uses a separate divisor for overtime because it contributes to total time differently than
regular hours. Unlike regular hours, it is considered to be completely work time, with no
associated leave hours. The calculation converts the overtime to the equivalent regular
time to properly compute direct workyears.

After all components of the indicator are entered, formulas in the PPWY Calculation
spreadsheet calculate the direct workyears. The direct workyears are entered into an
Electronic CAS spreadsheet, and the final number of SSA hearings cases PPWY is
calculated. The assigned DCA employee inputs the Electronic CAS spreadsheet into
the CAS application, which produces the Pre-Input Cost Analysis (PICA) report. The
performance indicator result for the number of SSA hearings cases PPWY is reported
on the PICA.

Performance Indicator Calculation

SSA Hearings Cases Processed                        Number of SSA hearings cases processed
                                              =
per Workyear (PPWY)                                 Direct Workyears


RESULTS OF REVIEW
Our assessment of the indicator included in this report did not identify any significant
exceptions related to the meaningfulness of the indicator, the accuracy of presentation,
or disclosure of information related to the indicator in the FY 2007 PAR. We were able
to recalculate the indicator results and found them to be accurate. In a January 2006
audit on this performance measure, 14 we noted one issue of concern related to general
controls that, to date, has not been adequately addressed. We also noted weaknesses
with the security configuration of two UNIX operating systems.

13
  The travel formula is based on the assumption that 10 percent of a judge’s time is spent traveling. The
Biweekly Staffing Report gives the number of ALJs, which is then reduced by one because the Chief ALJ,
who manages hearing operations, does not travel.
14
     Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113).


Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                       5
Data Reliability

We were able to recalculate the interim and year-end indicator results and found them
to be substantially accurate. Despite the internal control weaknesses noted below, we
were able to determine that the data used to calculate this performance indicator were
reliable.

Systems Control Issues

The CPMS application resides on a UNIX operating system to process data. In our
current review of the CPMS application, which was performed at a point in time, we
reviewed the security controls over two of these UNIX systems. We identified
eight security and compliance issues. 15 This review was conducted on the SSA-
developed UNIX Risk Model configuration standard, National Institute of Standards and
Technology (NIST) guidelines 16 and the Defense Information Security Agency (DISA)
Security Technical Implementation Guides (STIGS). 17 We did note that SSA
management has monitoring controls in place to compare security settings on its UNIX
servers to the SSA Risk Model. This is performed on a monthly basis. If a variance is
noted, SSA management will correct this variance. In addition, SSA management
updates the SSA Risk Models for UNIX every 6 months.

General Controls Issues

We previously identified issues related to the general controls at the ODAR office space
in Falls Church, Virginia. These issues were reported in our report, Performance
Indicator Audit: Hearings and Appeals Process (A-15-05-15113).

During our general controls testing for the current audit, we again found that visitors to
the ODAR space were not required to sign in upon entry. In addition, there were no
security guards at the entrance of the ODAR space. Management stated that security
guards are in place throughout the facility; however, during the fieldwork, we did not
note the presence of any guards. It should be noted that the ODAR space is located in
a multi-tenant, privately owned building, and ODAR management does not have
complete control over the physical security of the building. In addition, to gain access to
the ODAR space, a key card was required.




15
  We have separately provided management with details on each of the specific control weaknesses
noted in our review, including individual recommendations for addressing them. Due to the sensitive
nature of the weaknesses, we cannot disclose them in this report.
16
     The NIST guidelines 800-18 Section 6.MA.2 were used to perform the review.
17
     The DISA STIGS Security Checklist version 4R4, Section 3.8 was used to perform the review.


Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                     6
We recommended in the January 2006 report that ODAR, “Ensure all visitors were
required to sign in upon entry to restrict visitor access to the OHA [Office of Hearings
and Appeals] buildings.” SSA's management provided the following response to these
findings and recommendation in the January 2006 audit report.

          We agree. The ODAR Headquarters building security could be
          improved. ODAR is working in conjunction with the Department of
          Justice to provide security enhancements at the ODAR facility in Falls
          Church, Virginia to bring the building in compliance with Level IV federal
          standards. 18

CONCLUSION AND RECOMMENDATIONS
We reaffirm our previous recommendation related to CPMS noted in the prior audit of
this indicator. We continue to recommend that SSA take action to address the
recommendation. (Refer to Appendix D for the prior audit recommendation.)

AGENCY COMMENTS
The Agency agreed with our prior recommendation. The Agency’s comments are
included in Appendix E.




18
     Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113), January 2006, p. E-2.


Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                       7
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Number of Social Security Administration Hearings Cases
             Processed per Workyear - Flowchart

APPENDIX D – Prior Audit Recommendations

APPENDIX E – Agency Comments




Performance Indicator Audit: Hearings and Appeals Process (A-15-07-17132)
                                                                    Appendix A

Acronyms
 Act      Social Security Act
 AC       Appeals Council
 ALJ      Administrative Law Judge
 CAS      Cost Analysis System
 CIS      Care Intake Specialist
 CPMS     Case Processing and Management System
 DCA      Division of Cost Analysis
 DI       Disability Insurance
 DISA     Defense Information Security Agency
 FY       Fiscal Year
 GAO      Government Accountability Office
 GPRA     Government Performance and Results Act of 1993
 MTAS     Mainframe Time and Attendance System
 NIST     National Institute of Systems and Technology
 OASI     Old-Age and Survivors Insurance
 ODAR     Office of Disability Adjudication and Review
 ODS      Operational Datastore
 PAR      Performance and Accountability Report
 PARR     Payroll Analysis Recap Report
 PICA     Pre-Input Cost Analysis
 PPWY     Processed per Workyear
 RSI      Retirement and Survivors Insurance
 SCT      Senior Case Technician
 SSA      Social Security Administration
 SSI      Supplemental Security Income
 STIGS    Security Technical Implementation Guides
 TAMIS    Time and Attendance Management Information System
 U.S.C.   United States Code




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)
                                                                     Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes through research and
questions to SSA management. We also requested that SSA provide various
documents regarding the specific programs being measured as well as the specific
measurement used to assess the effectiveness and efficiency of the related program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we completed the following steps.

   •   Reviewed prior SSA, Office of the Inspector General, and other reports related
       to SSA’s GPRA performance and related information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process (see Appendix C).
   •   Tested key controls related to manual or basic computerized processes (for
       example, spreadsheets and databases).
   •   Conducted and evaluated tests of the automated and manual controls within
       and surrounding each of the critical applications to determine whether the
       tested controls were adequate to provide and maintain reliable data to be used
       when measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of the performance indicator to ensure
       mathematical accuracy.
   •   Assessed the completeness and accuracy of the data to determine the data's
       reliability as they pertain to the audit objectives and intended use of the data.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes in SSA and the existing measurement systems. Our understanding
of the Agency’s mission, goals, objectives, and processes were used to determine
whether the performance indicator appeared to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                      B-1
In addition to these steps, we specifically performed the following to test the
performance indicator included in this report.

   •   Inspected relevant policies and procedures as necessary.
   •   Audited the design and effectiveness of SSA internal controls and the accuracy
       and completeness of the data related to the following areas:
          o Observed the input of the Hearing Request Date, Request Received
             Date and the Input of Hearing Disposition in the Case Processing and
             Management System (CPMS). This was performed for 40 cases – the
             entire population available at that time.
          o Performed a follow-up general computer control review as it relates to
             the CPMS.
          o Performed a limited application controls review of CPMS.
   •   Determined the adequacy of programming logic used by SSA related to CPMS
       Management Information.
   •   Reviewed each component of the workyear calculation for completeness and
       accuracy.
   •   Traced data from supporting reports to the spreadsheets used to calculate the
       performance indicator.
   •   Compared the spreadsheet results for the performance indicator for Fiscal Year
       2007 to the number reported in the Performance and Accountability Report.

We conducted our work in accordance with generally accepted government auditing
standards.




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                  B-2
                                            Appendix C
Number of Social Security Administration Hearings
Cases Processed per Workyear - Flowchart

      Initial decision
        received by
          claimant



    Claimant asks for
    reconsideration of
      Social Security
     Administration’s
       (SSA) initial
         decision




      Did SSA agree                       SSA reverses their
                                 No                                      End
      with their initial                    initial decision
         decision?


            Yes

 Claimant receives SSAs
 reconsideration decision




        Request
                               No          End
      Hearing (RH)?



            Yes

                                                                 The claimant is
          RH filed                    Claimant requests         asked about their           Should the Teleservice
       through Field        No            hearing via            appeal over the          Center send the claimant a
        Office (FO)?                  Teleservice Center          phone by the             HA-501 form to complete
                                                               Teleservice Center                and submit?
                                                                                                                         No

            Yes


                                       The Teleservice                                                       An admin message is sent to
       Form HA-501                    Center sends the                                                          the FO to have the FO
                                                                                    Yes
                                      claimant the form                                                      contact the claimant to help
                                           HA-501                                                              in filing the HA-501 form




      Claimant sends
         RH to FO




FO forward the Case File to
  Hearing Office (HO) for
 processing if the appeal
was filed within the appeals
           period



          Page 2




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                                              C-1
Number of Social Security Administration Hearings
Cases Processed per Workyear - Flowchart continued

            Page 1



     Case Intake Specialist
      (CIS) / Senior Case
       Technician (SCT)
     enters claim into Case
          Processing
     Management System
            (CPMS)



       CIS determines if
      claim is eligible for
        early screening




      CIS assigns claim
            to an
      Administrative Law
        Judge (ALJ)



                                                      Dismissed
                              No
           Will ALJ                                                                 Final favorable
           conduct                                                                 decision/dismissal
           hearing?                                                                 sent to claimant
                                                   ALJ determines to
                              No                    pay claim on the
                                                     record (OTR)
                                                   (Expedite without
              Yes                                       hearing)



        Hearing is held
         and case is
          explained



                               In most instances
                                                                 Clerk enters
                                  support staff                                           Decision letter and a copy of
         ALJ issues a                                          disposition date
                                enters decision                                           the ALJ’s decision is sent to
           decision                                           and mail date into
                                 into CPMS for                                                      claimant
                                                                    CPMS
                                   SSA cases



       Propagation of Database Files to CPMS

         Hearing Office                                                                 Combine MAR for
                               Regional database             Monthly Activity                                             MAR posted to the
       database files sent                                                                all locations to
                               files sent to ODAR            Report (MAR)                                                    Intranet for
       to Regional Office                                                               generate Caseload
                                 and combined in              generated by                                                Regional Offices to
        and combined in                                                                  Analysis Report
                                      CPMS                       CPMS                                                           review
             CPMS                                                                               (CAR)



                                                                                                 A




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                                                          C-2
Number of Social Security Administration Hearings
Cases Processed per Workyear - Flowchart Continued


SSA Hearings PPWY Calculation

        A



 Number of SSA              Control workyears                                                                       Training totaled
                                                      Regular/OT/Leave            Travel calculated                                              Monthly Electronic
     Hearings               calculated by DCA                                                                         from HO/RO
                                                       calculated using             using Travel                                                 CAS file emailed
 Processed taken              and emailed to                                                                        Training Reports
                                                            MTAS                      Formula                                                        to DCA
  from the MAR               ODAR analyst.                                                                          using Webbass




                                                               Run macro to
  Create ODAR
                                  Run macro to               update CAS Input                                                    PICA updated with
 Workload file and                                                                             Upload PRN file to
                                create PRN file for           sheet with data                                                      current month
agree to Electronic                                                                                  CAS
                                  upload to CAS                 from ODAR                                                               input
       CAS
                                                               Workload file




               Check PICA
                                        Reconcile numbers listed                Spreadsheet formulas calculate
            against CAS Input
                                         in Receipts, Processed,                    performance indicator                                     Send to Director of
             sheet to ensure
                                         and Workyears fields of               Number of SSA Hearings Cases                                    DCA for review
             proper upload of
                                        spreadsheet to the PICA.               Processed per Workyear (PPWY)
                information




                                                                                    SSA Hearings Processed

                                                                    (Regular Time + Overtime) - (Leave + Travel + Training)                    Director of DCA
                                                                                           2,080*                                              sends results to
                                                                                                                                              OSM by the 15th of
                                                                   *SSA defines a work year as 2,080 hours = (40 hours * 52 weeks).              each month




                                                                                                                                                 Reporting of
                                                                                                                                                 Performance
                                                                                                                                               Indicator in PAR




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                                                                                     C-3
Number of Social Security Administration Hearings
Cases Processed per Workyear - Narrative
       •    The initial decision of a claim is received by the claimant.
       •    The claimant requests a reconsideration of the SSA's initial decision.
       •    If SSA does not agree with the initial decision, it will reverse its initial decision.
            If SSA agrees with the initial decision, the claimant will receive SSA's
            reconsideration decision.
       •    The claimant can now request a hearing, either through an FO or teleservice
            center.
       •    In both cases, the claimant is instructed to file Form HA-501 and send the
            hearing request to an FO.
       •    The FO forwards the case file to the HO for processing if the appeal was filed
            within the appeals period.
       •    The CIS or SCT enters the case into the CPMS.
       •    The CIS determines whether the case is eligible for early screening (that is,
            claimants who are over 55 years of age) and will assign to an ALJ on a
            rotational basis.
       •    The ALJ can either decide to conduct a hearing or not conduct a hearing. If a
            hearing is not conducted, the ALJ can dismiss the case or pay the claim on
            record without conducting a hearing.
       •    If a hearing is conducted, the case is explained, and the ALJ issues a decision.
       •    In most instances, the decision will be entered into CPMS by support staff.
       •    A clerk enters disposition date and mail date into CPMS.
       •    A decision letter and a copy of the ALJ's decision are sent to the claimant.
       •    HO database files are sent to the RO and combined in CPMS.
       •    Regional database files are sent electronically to ODAR and combined in
            CPMS.
       •    The MAR is generated by CPMS.
       •    The MAR is combined for all regions to generate the CAR.
       •    The MAR is posted to the SSA Intranet for ROs to review.
       •    The number of SSA Hearings Processed is taken from the MAR.
       •    Control workyears is calculated by DCA and emailed to ODAR.
       •    Regular Time, Overtime, and Leave are calculated using Mainframe Time and
            Attendance System (MTAS).
       •    Travel is calculated using the Travel Formula.
       •    Training is totaled from HO/RO training reports using Webbass.
       •    The monthly electronic CAS file is emailed to DCA.
       •    The ODAR Workload file is created and reconciled to the Electronic CAS by a
            designated ODAR budget analyst.
       •    A macro is run to create the PRN 1 file for upload to CAS.
       •    A macro is run to update the CAS input sheet with data from ODAR Workload
            file.
       •    The PRN file is uploaded to CAS.

1
    A PRN file is a print file, which contains special instructions for a printer.
Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                                C-4
   •   PICA is updated with the current month's input.
   •   Check PICA against CAS input sheet to ensure proper upload of information.
   •   Reconcile the number of hearings listed in the Receipts, Processed, and
       Workyears fields of the CAS spreadsheet to the numbers listed in the PICA.
   •   Spreadsheet formulas calculate performance indicator Number of SSA
       Hearings PPWY.
   •   Send to Director of DCA for review.
   •   Director of DCA sends to OSM by the 15th of the month.
   •   The Performance Indicator is reported in the PAR.




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                   C-5
                                                                               Appendix D

Prior Audit Recommendations
During a prior audit, 1 we provided SSA with the following recommendation for the
CPMS application that we continue to recommend:

      1. Ensure that the CPMS UNIX systems are configured to be in compliance with
         the SSA UNIX Risk Model and Government guidelines from National Institute of
         Standards and Technology (NIST) and Defense Information Security Agency.




1
    Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113), January 2006.
Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)
                                                                    Appendix E

Agency Comments




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)
                                        SOCIAL SECURITY


MEMORANDUM

Date:      March 31, 2008                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Hearings
           and Appeals” (A-15-07-17132)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendation is attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                           E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE INDICATOR AUDIT: HEARINGS AND APPEALS”
(A-15-07-17132)

Thank you for the opportunity to review and provide comments on this draft report. We
appreciate your efforts in conducting this review and thank you for collaborating with us in
making the technical changes suggested to the results and findings section of the draft report.
We believe the suggested change will fairly represent the state of UNIX monitoring, and we
look forward to seeing these changes reflected in the final report.

Our response to the recommendation is as follows:

Recommendation 1

Ensure that the Case Processing and Management System (CPMS) and UNIX systems are
configured to be in compliance with the SSA UNIX Risk Model and Government guidelines
from the National Institute of Standards and Technology and Defense Information Security
Agency.

Comment

We agree. SSA periodically updates its risk models to conform to accepted security principles.
Additionally, we frequently sweep the UNIX environment to ensure compliance with published
settings. Audits seldom match the timing of these activities, and we are confident our processes
are identifying non-compliant servers.




Performance Indicator Audit: Hearings and Appeals (A-15-07-17132)                           E-2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
